   DEPARTMENT OF HOMELAND SECURITY
                                      compFnepare

       Office of Inspector General



        A Review of Remote Surveillance
       Technology Along U.S. Land Borders




   Office of Inspections and Special Reviews

OIG-06-15                       December 2005
                                                                       Office of Inspector General

                                                                       U.S. Department of Homeland Security
                                                                       Washington, DC 20528




                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established
by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector
General Act of 1978. This is one of a series of audit, inspection, and special reports prepared as
part of our oversight responsibility to promote economy, effectiveness, and efficiency within the
department.

This report evaluates the effectiveness of border surveillance, remote assessment, and monitoring
technology in assisting the Bureau of Customs and Border Protection (CBP) to detect illegal entry
into the United States. It is based on interviews with employees and officials of relevant agencies
and institutions, direct observations, statistical analyses, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our office,
and have been discussed in draft with those responsible for implementation. It is our hope that this
report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                             Richard L. Skinner
                                             Inspector General
Table of Contents


   Executive Summary ......................................................................................................................1

   Background ...................................................................................................................................2

   Results of Review .......................................................................................................................16

           ISIS Has Not Been Integrated............................................................................................16

           OBP Could Not Demonstrate Force-Multiplication Advantages ......................................17
                ICAD Data is Incomplete and Unreliable for Measuring Force-Multiplication.......18
                It is Questionable Whether ISIS has Increased Effectiveness ..................................21
           OBP’s Oversight of Contract Activities was Ineffective...................................................25
                OBP’s Oversight of Contractor Performance was Ineffective..................................26
                OBP Certified Few Contractor Invoices Prior to Payment.......................................28
                RVS Installation Funds Remain Unspent in GSA Accounts ....................................29
           Challenges Exist in Expanding Surveillance Coverage.....................................................30

   Management Comments and OIG Analysis ...............................................................................34

Figures

   Table 1:        Southwest Border ICAD Ticket Results ...................................................................22
   Table 2:        Northern Border ICAD Ticket Results .....................................................................23
   Table 3:        Ownership of Land Adjacent to the U.S. Northern and Southwest Borders ............32

Appendices

   Appendix A:            Purpose, Scope, and Methodology ....................................................................38
   Appendix B:            Management Response to Draft Report ............................................................40
   Appendix C:            Major Contributors to this Report .....................................................................47
   Appendix D:            Report Distribution............................................................................................48




                                A Review of Remote Surveillance Technology along U.S. Land Borders
Abbreviations

   ASI      America’s Shield Initiative
   BPA      Blanket Purchase Agreement
   BTS      Border and Transportation Security Directorate
   CBP      Customs and Border Protection
   CLIN     Contract Line Item Number
   DHS      Department of Homeland Security
   FAA      Federal Aviation Administration
   FY       Fiscal Year
   GAO      Government Accountability Office
   GSA      General Services Administration
   ICAD     Intelligent Computer Assisted Detection
   IMC      International Microwave Corporation
   INS      Immigration and Naturalization Service
   ISIS     Integrated Surveillance Intelligence System
   IT       Information Technology
   LECA     Law Enforcement Communication Assistant
   MOU      Memorandum of Understanding
   NAS      National Airspace System
   NEPA     National Environmental Policy Act
   OBP      Office of Border Patrol
   OIG      Office of Inspector General
   OIRM     Office of Information Resources Management
   OIT      Office of Information Technology
   PMC      Performance Management Consulting
   POE      Port of Entry
   PPB      Office of Plans, Programs and Budget
   RVS      Remote Video Surveillance
   S&T      Science and Technology Directorate
   TD       Technical Directive / Task Directive
   UAV      Unmanned Aerial Vehicle
   USACE    U.S. Army Corps of Engineers




                    A Review of Remote Surveillance Technology along U.S. Land Borders
OIG
Department of Homeland Security
Office of Inspector General



Executive Summary
                          The Office of Border Patrol (OBP), within the Department of Homeland
                          Security’s (DHS) Bureau of Customs and Border Protection (CBP), is the
                          primary federal law enforcement organization responsible for detecting and
                          preventing illegal aliens, terrorists, and contraband from entering the United
                          States between official ports of entry (POEs). To help accomplish its
                          mission, OBP uses technology, including cameras and sensors, to detect and
                          identify illegal border intrusions. Cameras - both daylight and thermal-
                          infrared, installed on poles and other structures along high volume illegal
                          alien traffic areas of the border - constitute the Remote Video Surveillance
                          (RVS) system. Sensors are also used along high volume illegal alien traffic
                          areas of the border.

                          Remote surveillance technology is managed by OBP under the auspices of
                          the Integrated Surveillance Intelligence System (ISIS) program and the
                          America’s Shield Initiative (ASI). The ISIS program and ASI have received
                          funding annually since Fiscal Year (FY) 1997 -- to date more than $429
                          million.1 Several limitations of border surveillance and remote assessment
                          and monitoring technology as well as significant delays and cost overruns in
                          the procurement of the RVS system have impeded the success of ISIS.

                          •     ISIS components are not fully integrated, e.g., when a sensor is
                               activated, a camera does not automatically pan in the direction of the
                               activated sensor. In addition, RVS cameras do not have detection
                               capability regardless of whether they are used in conjunction with
                               sensors. To complicate matters further, because current sensors cannot
                               differentiate between illegal alien activity and incidental activations,
                               caused by animals, seismic activity, or weather, OBP agents are often
                               dispatched to false alarms.

1
 The ISIS program was initiated while the Border Patrol was part of the Department of Justice’s Immigration and
Naturalization Service (INS). Within INS, the Office of Information Resources Management (OIRM) was the
principal manager of the ISIS program. In April 2001, a memorandum of understanding was established between
OIRM and Border Patrol that transferred the RVS system and sensor program to Border Patrol and left the Integrated
Computer Assisted Detection (ICAD) component of ISIS with OIRM. When Border Patrol was brought under DHS in
March 2003, all ISIS elements transferred to the Border Patrol. All references to OBP refer to both current and legacy
INS activities related to the ISIS program.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 1
             •   OBP was unable to quantify force-multiplication benefits of remote
                 surveillance technology. Further, data entered into OBP’s primary
                 source of ISIS information, the ICAD system, is incomplete and not
                 consistently recorded by OBP sectors.

             •   Based on an analysis of sample ICAD data, ISIS remote surveillance
                 technology yielded few apprehensions as a percentage of detection,
                 resulted in needless investigations of legitimate activity, and consumed
                 valuable staff time to perform video analysis or investigate sensor alerts.

             •   Deficiencies in the contract management and processes used to install
                 ISIS equipment have resulted in more than $37 million in DHS funds
                 remaining in General Services Administration (GSA) accounts; delays in
                 installing, testing, and bringing on-line RVS sites that are operational;
                 and 168 incomplete RVS camera sites.

             •   Efforts to enhance and expand remote surveillance coverage will
                 continue to face numerous challenges, i.e., streamlining the RVS camera
                 site selection process and addressing environmental, cultural, and
                 historic restrictions.

             We are recommending that CBP (1) maximize integration opportunities and
             ensure that future remote surveillance technology investments and upgrades
             can be integrated; (2) standardize the process for collecting, cataloging,
             processing, and reporting intrusion and response data; (3) develop and apply
             performance measures to evaluate whether current and future technology
             solutions are providing force-multiplication benefits and increasing response
             effectiveness; (4) continue to work with GSA to resolve contract related
             claims, financially reconcile funding provided to GSA, and obtain the return
             of the unused funds to DHS; (5) develop strategies to streamline the site
             selection, site validation, and environmental assessment process to minimize
             delays of installing surveillance technology infrastructure; (6) expand the
             shared use of existing private and governmental structures to install remote
             surveillance technology infrastructure where possible; and (7) continue to
             identify and deploy the use of non-permanent or mobile surveillance
             platforms.


Background
             The September 11, 2001, terrorist attacks on the World Trade Center and
             Pentagon highlighted the urgent need to reevaluate border security risks as
             well as the resources needed to secure the nation’s borders. With the
             establishment of DHS, the functions and jurisdiction of several border and

             A Review of Remote Surveillance Technology along U.S. Land Borders

                                          Page 2
                         security agencies were merged into the Border and Transportation Security
                         Directorate (BTS), which was tasked with securing the nation’s borders and
                         safeguarding its transportation infrastructure.2 Within this directorate, CBP,
                         through its uniformed enforcement services, is responsible for detecting and
                         preventing illegal aliens, terrorists, and contraband from entering into the
                         United States.

                         CBP officers are responsible for border security at POEs; OBP agents are
                         responsible for border security and control between POEs. OBP, the only
                         federal law enforcement agency policing the nation’s land borders, performs
                         this mission by conducting regular land, air, and marine patrols. OBP’s
                         statutory authority is outlined in Title 8, United States Code, Section 1357.
                         OBP’s strategic plan emphasizes that its top priority is to:

                                   Strengthen U.S. Borders to prevent entry into the United
                                   States of terrorist and terrorist weapons, smugglers and
                                   illegal aliens, narcotics, and contraband.

                         Since joining DHS, OBP’s organizational structure and day-to-day
                         operational practices have undergone change.3 Under the legacy INS, OBP
                         operations were decentralized to three INS regional offices that had
                         operational and administrative oversight over 21 border patrol sectors.4 As
                         part of DHS, the regional office structure was removed and OBP sector
                         chiefs now report directly to OBP headquarters. OBP has a workforce of
                         more than 12,700 employees, of whom 10,742 are OBP agents assigned to
                         patrol the vast expanse of America’s land borders.


The Integrated Surveillance Intelligence System
                         In the early 1970s, OBP started using technology to assist its agents in
                         remotely detecting illegal aliens entering the United States along its 4,000
                         miles of border with Canada and 2,000 miles of border with Mexico.5 OBP
                         began using seismic and magnetic sensors to provide rudimentary warnings
                         of possible intrusions. While the sensors improved detection capability,
                         they resulted in numerous false alarms.




2
  Public Law 107-296, the Homeland Security Act of 2002.
3
  Effective March 1, 2003, the functions of INS, of which OBP was a part, were transferred to DHS from the
Department of Justice, and INS was abolished.
4
  Recently, OBP eliminated the Livermore Sector and divided the land area among nearby sectors. Within the
remaining border sectors are 142 border patrol stations.
5
  The 6,000 miles of border does not include the 1,500 miles of border between Alaska and Canada.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 3
In the early 1980s, an electronic system was introduced to record sensor
alerts. Additionally, low-level light television cameras were installed at
several known high-traffic locations. In 1988, the ICAD system was
introduced and used by OBP to register sensor activity, track agent response,
and record results.

In 1998, INS formally established the ISIS program. ISIS equipment was
intended to provide continuous monitoring of the borders in all weather
conditions. When fully deployed, ISIS was to establish a fully integrated
network combining sensor detections with camera video identification
capability.

ISIS Equipment

•   Sensors, primarily seismic and magnetic, buried in the ground, provide
    remote detection capability. When a sensor detects activity, alerts are
    sent via radio transmission to an OBP sector or station communications
    center. This alert is registered in ICAD and displayed on workstation
    terminals monitored by Law Enforcement Communication Assistants
    (LECAs). According to OBP, there are more than 11,000 sensors along
    the northern and southwest borders.

•   RVS systems provide the primary remote identification capability.
    RVS components include cameras, mounting poles, radio, and
    equipment, such as cabling and equipment enclosures. The RVS system
    includes both color (day) and thermal-infrared (night) cameras, which
    are mounted on sixty or eighty-foot poles or other structures. RVS
    camera signals are transmitted to the OBP sector or station
    communications center via a wireless system such as microwave signal,
    or, in one sector, via fiber optic cable. Personnel at designated
    communications centers can control most RVS cameras remotely using
    toggling keyboards. There are 255 operational RVS camera sites along
    the northern and southwest borders.

•   The ICAD system provides OBP with a resource tracking and response
    coordination capability. ICAD is integrated with sensors so that when a
    sensor is triggered, an alert is registered in ICAD. The alert creates an
    event record, or ticket, that is used to record data pertaining to the alert
    and eventually the result of an OBP agent’s investigation. ICAD aids
    LECAs in tracking OBP agent activities and provides OBP with a means
    to generate activity reports.




A Review of Remote Surveillance Technology along U.S. Land Borders

                             Page 4
        Procurement
                         Over the life of the ISIS program, different regulations, contracts, and
                         agreements for various durations governed the installation of the RVS sites.6
                         According to OBP, there were two primary contract vehicles for RVS
                         installations.7 Both were GSA federal supply service contracts. In
                         September 1998, INS entered into an interagency agreement with GSA
                         through a Memorandum of Understanding (MOU).8 According to the
                         MOU, GSA would provide information processing services through task
                         orders to private sector contractors, and GSA would provide the contracting
                         officer and the contracting officer’s technical representative. In March
                         1999, the International Microwave Corporation (IMC) was awarded a
                         contract to engineer, install, manage, and provide remote surveillance
                         equipment and support to multiple sites throughout the United States.

                         Blanket Purchase Agreement for Remote Video Surveillance
                         Installations

                         Following the initial award to IMC, OBP requested that a Blanket Purchase
                         Agreement (BPA) be issued to IMC by GSA. OBP cited cost savings as the
                         greatest benefit of a BPA. Specifically, OBP highlighted a unique teaming
                         alliance IMC had with five technology companies, which would result in
                         favorable equipment discounts up to 16 percent below the GSA federal
                         schedule price list. Additionally, OBP stated that IMC had emerged as the
                         principal systems integrator, and that approval of the BPA would help
                         standardize the RVS equipment by eliminating the continual requests from
                         the field for customization. In November 2000, GSA issued a BPA with
                         IMC to support all RVS requirements through September 30, 2004.9

                         Under the terms of the BPA, the contractor was obligated to (1) perform
                         technical and construction feasibility assessments of sites identified by OBP;
                         (2) perform preliminary real estate coordination, which included
                         determining land ownership and property rights; (3) coordinate
                         environmental assessment activities; (4) assist in obtaining permits, zoning
                         approvals, and lease or memorandums of understanding between the
                         government and the land owner; (5) develop preliminary designs, including

6
  This included Federal Acquisition Regulations, GSA federal supply schedule contracts with various vendors,
particularly the federal supply schedule contracts with IMC; the MOU between GSA and INS; and, a Blanket Purchase
Agreement (BPA).
7
  According to OBP and GSA records, it appears that one primary contract was GS-35F-1103D, through which,
(according to OBP) at least $27.8 million was awarded, and the other primary contract was GS-35F-0425J, which was
referenced in the BPA. GSA records indicate that there was a third contract for RVS installations:
GS05T01BMM2002.
8
  GSA MOU 152053601
9
  BPA GS05KR01BMC0001 was signed during November 2000 for an estimated $200 million in purchases. Only
ISIS technology and OBP agent support equipment and services could be ordered under this BPA.

                         A Review of Remote Surveillance Technology along U.S. Land Borders

                                                      Page 5
                          geotechnical surveys, foundation design, and boundary design; (6) deliver,
                          install, and test each RVS component; and, (7) provide system operation and
                          maintenance support, system documentation such as final design plans, and
                          any other documentation or equipment deemed necessary under the
                          approved technical directives (TD).10

                          The BPA included 22 defined contract line item numbers (CLIN), each with
                          a detailed description and corresponding firm fixed price per unit. The
                          CLIN definitions called for “full turnkey” installations of various camera
                          site configurations and support equipment. This standardized the ordering
                          process under the BPA and allowed for the cost of each TD to be calculated
                          by multiplying the quantity of CLINs by the firm fixed price. In addition to
                          the CLINs, the BPA allowed for “other direct costs.” Other direct costs
                          were defined as equipment, materials, and services, which fell outside the
                          CLINs but were necessary to complete the installation. These other direct
                          costs were capped at 10 percent of each TD awarded under the BPA.

                          The BPA could be renewed provided that the federal supply service contract
                          between the contractor and GSA was renewed. That contract was not
                          renewed, and the BPA expired on September 30, 2004. According to OBP,
                          as of August 2005, 255 RVS camera sites and 27 non-camera sites, such as
                          repeater towers, are operational, and 168 RVS camera sites and 38 non-
                          camera sites are incomplete. Of those 255 completed sites, 105 were
                          installed pursuant to TDs issued prior to the BPA.

                          ICAD Contracting

                          OBP obtained contract services through GSA for ICAD equipment
                          installation and technical support. In January 2001, a time and materials
                          task order was awarded to HAZMED, Inc. to support all ICAD requirements
                          through September 2001. A new one-year, with four option years, contract
                          was awarded in September 2001. OBP is currently exercising the option
                          year provisions of this contract, which could extend until September 2006.

                          Sensor Contracting

                          OBP procured sensors and sensor parts via the DHS Special Purchase
                          Processing Equipment III fixed price contract. Due to new requirements to
                          use narrow (radio) bandwidth sensor equipment, OBP made arrangements to
                          purchase sensors meeting these requirements through an existing DHS



10
  Based on several documents, “TD” was used interchangeably as an abbreviation for Task Directives, Technical
Directives, and Task Descriptions. Under the BPA, TDs defined the number and type of RVS sites to be installed and
the period of performance for the work to be completed.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 6
                          Bureau of Immigration and Customs Enforcement contract.11 Sensors are
                          used until they are not repairable, at which time they are taken out of service
                          and replaced if others are available. These sensors cost approximately
                          $3,500 each.

             Capabilities, Limitations, and Requirements
                          ISIS provides OBP with a remote detection and identification capability.
                          However, there are factors that limit the effectiveness of this technology.
                          For example, (1) sensors are not able to differentiate between illegal activity
                          and legitimate events; (2) RVS cameras cannot automatically detect any
                          activity or movement and are limited by weather; (3) sensors are limited by
                          battery power and RVS cameras have infrastructure requirements that have
                          caused significant installation delays and cost overruns; and, (4) the success
                          of ISIS is ultimately dependent upon the limited availability and capability
                          of staff resources.

                          Sensors

                          Sensors are part of the first line of a layered border security strategy. Sensor
                          technology is the most used as well as the easiest and least expensive to
                          install and maintain. The sensor sensitivity level can be adjusted to help
                          filter false alerts. When activity or movement near a sensor meets
                          sensitivity parameters, a radio signal is transmitted and the alert is registered
                          in the ICAD system. When sensors are placed in a pattern, or “sensor
                          string,” experienced OBP personnel can estimate the direction and rate of
                          travel and the possible number of intruders based on the sequencing of the
                          alerts, the time lapse between alerts, and the number of alerts transmitted.

                          Although effective in detecting activity or movement, sensors cannot
                          differentiate between illegal activity and legitimate events. Consequently,
                          nearly all sensor activations must be investigated. The general exceptions
                          are when certain events occur such as earthquakes, area blasting, or severe
                          weather, which could reasonably explain why multiple sensors within a
                          certain area are triggered at approximately the same time.

                          Moisture, insects, and intentional or accidental physical damage can affect
                          the operation of a sensor. Sensors are susceptible to physical damage from
                          vehicles, machinery, or vandals. Insects penetrating sensors and shorting-
                          out components or corrosion caused by moisture can cause sensors not to
                          function properly. To mitigate the effects of insects, OBP agents apply
                          various chemicals or repellents on or around the sensors.

11
  According to a senior OBP official, Monotron is the only supplier of sensor equipment that can transmit signals
using OBP’s existing communications equipment.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 7
Limited power supply from batteries can also affect sensor operation.
Sensor battery life is based on two primary factors: weather conditions and
the number of times the sensor is activated. Sensors do not have battery life
indicators but are programmed to send test signals on a periodic basis.
When these test signals are not transmitted, this normally indicates that the
sensor battery needs to be replaced. OBP personnel routinely replace
batteries about every six months. Recognizing that it can be difficult to
locate and dig up sensors during certain weather conditions such as snow, it
is common practice for northern border sectors to replace batteries during
the fall and spring, preferring to replace a battery before it actually needs to
be replaced so that the sensor is not out-of-service for an extended period of
time during the winter.

Remote Video Surveillance Cameras

Other than having an OBP agent on site, thermal-infrared, low-level light
and multiple color cameras provide the most effective means of
identification. Since cameras provide a visual means to evaluate activity on
a real-time basis, they are the most effective technology used by OBP to
differentiate between illegal activity and legitimate events. Cameras with
remotely controlled pan and tilt capability can cover a wider field of view
than cameras with fixed viewpoints.

However, RVS cameras are limited. RVS cameras do not have the ability to
detect movement. Therefore, illegal activity may go unnoticed unless OBP
personnel happen to be monitoring video terminals at the time an illegal
crossing is in progress. RVS cameras are only operational when electrical
power is available. Recognizing the vulnerability to local power outages,
one sector we visited installed back-up power to cameras located near
corridors with a high volume of illegal alien traffic. Not all camera sites
have back-up power sources. Also, extreme weather conditions can affect
camera operation. For example, excessively high or low temperatures can
cause cameras not to respond to remote pan and tilt commands. On the
northern border, OBP sector personnel suggested that all cameras be
equipped with heaters to melt snow and ice build-up that otherwise might
impede the camera’s operation. Likewise, cooled cameras in hot and humid
conditions can improve quality resolution.

Infrastructure Requirements

Both RVS cameras and sensors must transmit signals to receivers at OBP
sector or station headquarters. RVS camera signals usually are sent via
microwave radio communications, and, in one sector, via fiber optic cable.
In addition, cameras require that zoom, pan, and tilt commands be sent via
radio signals from OBP sector or station headquarters. This generally does


A Review of Remote Surveillance Technology along U.S. Land Borders

                             Page 8
                            not pose a significant problem if line of sight can be maintained between
                            transmitter and receiver, or unless the signal has to travel a significant
                            distance. However, the terrain along remote areas of the northern and
                            southwest borders is so diverse that few areas are conducive to transmitting
                            radio signals without the use of repeaters, which usually requires the
                            additional construction of repeater towers to relay camera or sensor signals.

                            In most cases, the installation of both RVS camera sites and repeater towers
                            requires access to land. Assuming OBP is able to negotiate lease
                            agreements or memorandums of understanding with property owners, these
                            areas need to be supplied with electrical power as well. When access to
                            strategically or tactically desirable land cannot be acquired, or is not
                            technically feasible, alternate locations must be used. In some instances,
                            OBP has placed RVS cameras on existing infrastructure belonging to local
                            governments or private utility companies.

                            For each location where infrastructure is needed, environmental assessments
                            must be performed according to the National Environmental Policy Act
                            (NEPA) to determine whether project activities will adversely affect
                            environmental quality.12 Historically, OBP has funded the U.S. Army Corps
                            of Engineers (USACE) to perform these environmental assessments after the
                            contractor has negotiated property access but before beginning the actual
                            tower and equipment installations.

                            Due to the time needed to address these non-construction related
                            requirements, RVS camera site installations have taken, on average,
                            20 months to complete.

                            Personnel Requirements

                            The success of ISIS is ultimately based on the availability and capability of
                            three types of personnel: the LECA, the OBP agent, and the CBP-Office of
                            Information Technology (OIT) specialist.

                            •   LECAs are primarily responsible for providing radio and dispatch
                                support to OBP agents in the field. They are the coordination point
                                between ISIS and the OBP agent. The LECAs are tasked with
                                monitoring both RVS camera and ICAD terminals. Once they observe
                                suspicious activity or receive a sensor alert notification from ICAD, they
                                radio the information to OBP agents who, in turn, investigate and report
                                their findings. When the results of the OBP agent’s investigation are
                                received, the LECA closes the ICAD ticket.
12
  42 U.S.C. Section 4321, et seq. NEPA requires that all federal agencies analyze the potential effects of proposed
federal actions, which significantly affect the environmental quality, including a detailed analysis of alternatives to the
proposed actions.

                            A Review of Remote Surveillance Technology along U.S. Land Borders

                                                          Page 9
                          •   OBP agents respond to the alerts dispatched by the LECAs, investigate
                              the cause of alerts and report their findings. OBP agents also install and
                              maintain sensors. In some sectors, OBP agents are assigned to OBP
                              sector or station communications centers to monitor RVS cameras,
                              especially in areas with a high volume of illegal alien traffic. Where
                              remote surveillance coverage has not been installed, OBP agents
                              conduct air, ground, and marine patrols.

                          •   CBP-OIT specialists perform first-level, on-site repairs to RVS
                              cameras.13 When an RVS camera’s zoom, pan, and tilt motor or other
                              electrical components fail, CBP’s OIT personnel attempt to repair the
                              equipment on-site. However, cameras that cannot be repaired on-site are
                              sent to the OBP Operations and Maintenance facility in Albuquerque,
                              New Mexico.14 Also, OIT specialists perform more extensive repairs to
                              sensors, such as replacing electrical components.

        Integration
                          Since its introduction, the ISIS program has had varying expectations.
                          However, it is clear that sensors and RVS cameras were intended to work in
                          conjunction with one another, leveraging the detection capabilities of
                          sensors with the visual identification capabilities of RVS cameras. On
                          February 25, 1999, the INS Commissioner testified before the House
                          Judiciary Committee Subcommittee on Immigration and Claims regarding
                          ISIS and automated integration of the RVS cameras and sensors.

                                   [W]hen a ground sensor is triggered, a signal is sent, the
                                   designated camera receives the signal, and the camera then
                                   trains on the triggered ground sensor. At the centrally-
                                   located video monitoring site, the person monitoring the
                                   video screens is alerted to which sensor/camera system has
                                   been triggered, and can immediately view the site.

                          On June 17, 2004, the Under Secretary for BTS testified before the Senate
                          Committee on Commerce, Science and Transportation regarding the manual
                          integration of the RVS cameras and sensors.

                                   When a sensor is tripped, an alarm is sent to a central control
                                   room. Personnel monitoring control room screens use the


13
   CBP OIT personnel referred to here were formerly OBP electronic technicians. In October 2004, these positions
were transferred to CBP.
14
   Operations and Maintenance facility was established to receive, distribute, and maintain RVS equipment.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 10
                                    ICAD system to manually position RVS cameras in the
                                    direction from which the sensor alarm is tripped.

                           Therefore, whether by automated integration allowing RVS cameras to train
                           on the location of the triggered sensor, or through manual integration,
                           sensors and RVS cameras were envisioned to work together.

                           Sensors are automatically integrated with the ICAD system, as a sensor alert
                           automatically creates a ticket in ICAD. However, neither sensors nor ICAD
                           are automatically integrated with RVS cameras. OBP tested hardware and
                           software design modifications internal and external to ICAD that would
                           have automated the integration between sensors and RVS cameras. These
                           modifications were “successfully demonstrated,” but never deployed
                           because solutions did not meet functional requirements.15

                           For the most part, ISIS information is only available to OBP personnel in a
                           designated sector or station. Although the ICAD system is networked, OBP
                           managers decided to limit sharing of ICAD data between OBP sectors.
                           However, when shared access to ICAD data is authorized, it generally
                           allows adjacent OBP sectors or stations that share a common boundary to
                           exchange information. This facilitates coverage and analysis of illegal alien
                           activity along the seam between sectors or stations. Within an OBP sector,
                           it is possible to access ICAD data from multiple stations. But, sharing RVS
                           camera video images is more constricted. RVS camera feeds terminate at
                           OBP sector or station communications centers similar to a closed circuit
                           television configuration.16

                           Without automated integration between sensors and RVS cameras, LECAs
                           must manually point cameras to areas where sensors have been triggered.
                           The manual integration of sensors and RVS cameras is only possible where
                           sensors and RVS cameras are installed in close proximity. Also, LECAs are
                           required to manually integrate ISIS components by notifying OBP agents of
                           sensor activations or questionable activity detected while monitoring camera
                           video. The Under Secretary for BTS testified on June 17, 2004, that in the
                           future, he expected ISIS to integrate data from Unmanned Aerial Vehicles
                           (UAV), which are discussed later in this report.




15
   According to OBP, during test demonstrations, the signal back and forth between the sensors and the cameras was
successful. However, the camera did not consistently train on the location of the triggered sensor. Additionally, the
integration solution was unable to deal with multiple sensors near the same camera location being triggered in rapid
succession.
16
   Closed circuit television or video differs from broadcast television in that all components are directly linked via
cables or other direct means. Therefore, video images may be viewed or recorded only at the termination point.

                           A Review of Remote Surveillance Technology along U.S. Land Borders

                                                        Page 11
     Force-multiplication
                OBP has not developed performance measures to evaluate the effectiveness
                of ISIS. OBP officials said, however, that such measures were in the
                process of being developed, as are ways to measure force-multiplication and
                deterrence.

                Nevertheless, OBP officials assert that ISIS has been successful in serving
                as a force-multiplier in that it frees the use of the limited number of OBP
                agents who would otherwise be needed to monitor the border.


Transition to the America’s Shield Initiative
                Recognizing the need to improve border surveillance and remote assessment
                and monitoring technology, OBP began developing ASI in June 2003, as a
                program to integrate surveillance technology, communications, and
                visualization tools. OBP’s goal is to deliver new operational capability
                incrementally over a six-year acquisition period, while maintaining and
                modernizing ISIS. Current ISIS system components represent a very small
                part of the overall capability envisioned under ASI.

                Modernization measures of ISIS equipment under ASI may include
                additional surveillance structures, upgraded and expanded surveillance
                equipment, and significantly enhanced detection and monitoring
                capabilities. The measures may also include improved links to OBP agents
                to provide direct visual or other detection data as well as integrating new
                surveillance technologies including air, ground, and marine. Underlining
                any surveillance enhancements will be the need to provide all-weather, 24-
                hour capability.

                According to OBP, expanded use of surveillance technologies would be an
                effective force-multiplier, enabling agents to reduce requirements for static
                observation and provide an intelligence-based response. ASI will
                incorporate a means to evaluate the performance and effectiveness of
                enforcement actions. It is envisioned that ASI will collect performance
                metrics and provide managers with reports and analyses of its efficiency and
                effectiveness in enhancing the agents’ enforcement capabilities. The chief
                of the Border Patrol will prioritize ASI deployments based on threat models.
                For example, the Arizona border, which experiences half of the nation’s
                illegal alien traffic, will likely be an initial deployment priority.




                A Review of Remote Surveillance Technology along U.S. Land Borders

                                             Page 12
                          DHS estimated that full implementation of ASI will cost approximately $2.5
                          billion.17 Because of the cost, the DHS Deputy Secretary’s approval was
                          required to initiate work. That approval was granted in September 2004.

                          CBP officials advised that they plan to establish ASI requirements and
                          objectives and then hire a contractor to serve as a prime integrator. The
                          contractor will be responsible for designing and building an integrated
                          system that best meets OBP objectives. Since receiving approval to proceed
                          with ASI, OBP has been working with CBP-OIT and a consulting contractor
                          to identify and refine ASI requirements. OBP expects to select the prime
                          integrator by July 2006.

                          Concurrently, OBP has been working with the Science and Technology
                          Directorate (S&T) to identify potential technology solutions to address
                          impending ASI requirements.18 OBP field personnel participate in operator
                          workshops organized by S&T’s Office of Programs, Plans and Budget
                          (PPB).19 These workshops focus on capability requirements, not specific
                          technologies, and seek to identify the most urgent needs of DHS programs.
                          OBP will continue to use this forum to identify capability gaps to promote
                          research, development, testing, evaluating, and fielding technology
                          solutions.

                          Once ASI is further refined and the prime integration contractor identifies
                          specific technology requirements to meet OBP’s objectives, S&T anticipates
                          that the work they have completed to date can be quickly integrated into
                          ASI. As other ASI requirements become apparent, S&T will address those
                          requirements for future ASI integration.


Unmanned Aerial Vehicles for Border Security
                          Another technology advancement OBP is pursuing is the use of UAVs.
                          OBP began using UAVs in support of the Arizona Border Control Initiative
                          in June 2004, after nearly a year of planning, coordinating, and evaluating
                          the concept by S&T and BTS. S&T examined the technical capabilities of
                          the UAV platform, while OBP developed tactical uses for the UAVs. OBP
                          flew an Israeli-made Hermes UAV during June through September 2004.

                          In FY 2005, Congress provided $10 million for the continued use of UAVs
                          along the southwest border. In October 2004, a memorandum from the
                          DHS Secretary directed that UAVs become an operational asset along the
17
   In October 2004, the DHS Deputy Secretary estimated that the preliminary cost to fully fund the program would be
$2.5 billion.
18
   S&T is the primary research and development organization within DHS.
19
   PPB provides the strategic and technical vision for S&T.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 13
                            southwest border. In support of the Secretary’s directive, S&T made
                            arrangements for Northrop Grumman to provide UAV services using an
                            RQ-5 Hunter UAV platform during the month of January 2005. After
                            January 2005, the flights ended and OBP, with support from S&T, began
                            refining platform and sensor package requirements in preparation for issuing
                            a Request for Information for a UAV system.

                            On August 30, 2005, CBP announced that it had awarded a $14.1 million
                            contract to General Atomics Aeronautical Services, Inc., to deliver, operate,
                            and maintain one Predator B UAV platform and sensor package. This is a
                            one-year contract, with the option to extend the contract thereafter.
                            According to OBP, the Predator B is more capable than the UAVs used
                            during test flights, as well as more expensive to operate. The onboard
                            electro-optical sensors will aid OBP agents in apprehending illegal aliens,
                            confirming the cause of sensor alerts, and surveying remote areas of the
                            border.

                            Operations

                            During testing, the Hermes and Hunter UAVs were primarily used to
                            support apprehension of illegal aliens who had already been spotted by other
                            means. After illegal aliens were identified, the UAV was flown to the
                            vicinity of the contact. Once the UAV operators acquired visual contact of
                            the illegal aliens by manually searching with the craft’s onboard cameras,
                            the UAV was used to monitor the movement of the illegal aliens as well as
                            to guide OBP agents to them. One OBP official credited a UAV-assisted
                            apprehension for the capture of 81 illegal aliens by only four OBP agents.
                            Had the UAV not been in place to monitor the location and movement of the
                            illegal aliens when they break up into smaller groups and head in multiple
                            directions, the OBP official estimated that only 16 would have been
                            apprehended.

                            All test flights to date have been along the southwest border. Although the
                            Under Secretary for BTS testified on June 17, 2004, that he expects ISIS to
                            integrate data from UAVs, currently both systems are operated
                            independently.

                            Coordination

                            While DHS has approved UAVs for operational use, Federal Aviation
                            Administration (FAA) flight restrictions limit the use of UAVs in the
                            National Airspace System (NAS) because they do not possess an acceptable
                            “detect, sense and avoid” capability.20 According to an FAA official, an

20
  According to one FAA official, “detect, sense and avoid” is the ability to of an aircraft to detect other aircraft, terrain
or other civil airspace users in its flight path and maneuver in order to avoid a collision. This is contrasted with the

                            A Review of Remote Surveillance Technology along U.S. Land Borders

                                                          Page 14
                           acceptable solution to this limitation is still ten years away. FAA does not
                           consider onboard cameras, positioned to observe targets on the ground, to be
                           adequate for meeting “detect, sense and avoid” requirements. However, due
                           to the dramatic increase in the use of UAVs in both the public and private
                           sectors in recent years, on September 16, 2005, the FAA Flight
                           Technologies and Procedures Division issued a policy memorandum to be
                           used in determining whether UAVs will be allowed to fly in the NAS.

                           According to FAA’s policy memorandum, UAV pilots must have an
                           understanding of Federal Aviation Regulations applicable to the airspace
                           where the UAV will operate. Currently there are no federal licensing
                           requirements to operate UAVs. However, according to one FAA official, in
                           the near future UAV pilots will most likely be required to be certificated
                           pilots of manned aircraft. Currently, OBP is not training any of their agents
                           to operate UAVs.

                           The FAA supports UAV flight operations that can demonstrate an
                           acceptable level of safety. For these purposes, the FAA policy
                           memorandum outlines a process by which UAV operators might be able to
                           demonstrate an acceptable level of safety by performing what FAA calls a
                           system safety study. A system safety study might include a hazard analysis,
                           risk assessment, and other appropriate documentation that concludes that a
                           collision with another aircraft, parachutist, or other civil airspace user is
                           highly unlikely. Additionally, if UAVs are going to fly over congested
                           areas, heavily-trafficked roads, or an open-air assembly of persons, the
                           operator must provide information that establishes that the risk of injury to
                           persons on the ground is highly unlikely. According to FAA, OBP is
                           documenting air and ground traffic information along the southwest border
                           for the purpose of including this information as part of their system safety
                           study. FAA’s policy memorandum also includes a provision that allows
                           UAVs to be used for matters of national security when, under normal
                           circumstances, it does not conform to FAA policies. When operating UAVs
                           under these circumstances, FAA requires that the operator assume all risks.

                           Limitations

                           While the UAVs that were tested are able to stay airborne for up to 20
                           hours, which surpasses any current capability of aircraft in OBP’s fleet,
                           there are significant limitations to the UAV system. Weather conditions can
                           impact the operational capabilities of UAVs. Dense cloud cover limits the
                           visual acuity of some sensor and camera packages. Also, icing conditions
                           and thunderstorms cause difficulty for UAV flights.


traditional “see and avoid” function, which involves the human eye of a pilot looking out the window of the aircraft to
“see and avoid” potential obstacles.

                           A Review of Remote Surveillance Technology along U.S. Land Borders

                                                        Page 15
                          UAVs remain very costly to operate and require a significant amount of
                          logistical support as well as specialized operator and maintenance training.
                          Operating one UAV requires a crew of up to 20 support personnel. OBP
                          officials mentioned that the cost to operate a UAV is more than double the
                          cost of manned aircraft, and that the use of UAVs has resulted in fewer
                          seizures. However, the fact remains that UAVs can stay on station for an
                          extended period of time, which is a distinct advantage over manned air
                          support. According to OBP, the Hermes UAV costs $1,351 per flight hour
                          and the Hunter costs $923. Those figures included acquisition costs,
                          operations and maintenance costs, and the salaries and benefits of the pilots,
                          payload operators, and mechanics. Flight hour costs were based on leasing
                          the tested UAVs as opposed to a purchase, which OBP says would be less
                          expensive.


Results of Review

        ISIS Has Not Been Integrated
                          Despite a federal investment of more than $429 million since 1997, ISIS
                          components have not been integrated to the level predicted at the program’s
                          onset. RVS cameras and sensors are not linked in any automated fashion.
                          At each sector we visited, sensor alerts did not automatically activate a
                          corresponding RVS camera to pan and tilt in the direction of the triggered
                          sensor. At most sectors we visited, cameras had to be manually operated via
                          toggling control keyboards. In one sector we visited, camera positions and
                          views were fixed.21

                          To date, only limited automated integration has taken place. For example,
                          ICAD and sensors are integrated and ICAD is networked and can be shared
                          with other sectors. According to one senior OBP official, OBP is planning
                          to allow sectors to view “read-only” ICAD data via the ICAD intranet
                          website.

                          RVS camera surveillance video can be viewed only at one designated OBP
                          sector or station communications center.22 According to OBP officials,

21
   The six cameras the sector currently uses do not have a pan and tilt feature. These cameras were not deployed as
part of ISIS. Of the six cameras, two belong to Customs and Border Protection, and one belongs to the Canadian
Railroad for which the sector has received permission to receive feeds.
22
   When RVS camera systems were designed, each TD called for the installation of a number of camera sites along the
border and one control room where the camera video is sent and can be viewed. The control rooms are installed in
either a station or sector communications center. The communications infrastructure for an RVS camera can only send
the video signal to a single control room regardless of whether that control room is in a station or sector
communications center.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 16
           sharing surveillance video with other locations would require the
           infrastructure necessary to transmit, receive, and monitor signals from
           desired camera locations. Even if ISIS was fully integrated, due to a limited
           number of operational RVS sites (255 nationwide), integration opportunities
           would be limited to the areas near these sites. The remainder of the border
           is covered by sensor technology only or not covered by any remote
           surveillance technology.

           ISIS funding has been provided on an annual basis since 1997. However,
           the amount that would be available to ISIS planners often was not known or
           available until late in the fiscal year. Therefore, the ability to plan and
           schedule system enhancements was limited. Neither the RVS or ICAD
           contracts required the automated integration of RVS cameras with sensors.
           Also, as one senior OBP official explained, such automated integration
           technology was not affordable at the time the contracts were issued.

           The lack of automated integration undercuts the effectiveness and potential
           of ISIS. Since no automated integration exists between RVS cameras and
           sensors, the integration of information from these two sources becomes the
           responsibility of the LECA. The LECA is required to select the appropriate
           RVS camera, manually maneuver the camera in the direction of the sensor
           and attempt to identify the cause of the sensor alert. At one location we
           visited, only one LECA was on duty performing radio-dispatch duties,
           processing sensor alert information via ICAD, and monitoring 32 cameras.

           Additionally, without automated integration, the need for additional
           equipment to be available to perform manual integration increases. Without
           the necessary equipment, the effectiveness of ISIS is further lessened. At
           each sector we visited, there were more RVS cameras than toggling
           keyboards, allowing only a few cameras to be controlled at one time. Thus,
           the number of functioning toggling keyboards limits active camera
           monitoring. The sector we visited with 32 cameras only had three toggling
           keyboards.

           Recommendation 1: We recommend that the Commissioner, Customs and
           Border Protection, maximize integration opportunities and ensure that future
           remote surveillance technology investments and upgrades can be integrated.


OBP Could Not Demonstrate Force-Multiplication Advantages or
Performance-Measuring Results to Validate the Benefits of Technology
Investments
           Senior CBP and OBP officials have made repeated statements in
           congressional testimony and program documents that ISIS is a force-

           A Review of Remote Surveillance Technology along U.S. Land Borders

                                        Page 17
                         multiplier. During interviews with OBP officials at headquarters and in the
                         sector offices, we were told that remote surveillance technology was a force-
                         multiplier. However, OBP could not provide any quantifiable data to
                         support this claim.

                         Furthermore, none of the sector officials reported they were analyzing the
                         accuracy of alerts. Instead, sector intelligence personnel use sensor data to
                         evaluate traffic patterns and to position OBP agents and additional sensors
                         to intercept illegal aliens more effectively.

                         A senior OBP official at headquarters said that INS never paid much
                         attention to the Government Performance and Results Act of 1993 standards
                         until 1998 or 1999.23 Therefore, prior to 1999, few statistical indicators or
                         performance measurement standards were used to analyze ISIS return on
                         investment. Now, six years later, such performance measures are under
                         development. A senior OBP sector official said that he participates in a
                         national planning group that is working on developing a way for OBP to
                         measure both force-multiplication and deterrence.

                         Several OBP sector personnel said that it was difficult to measure force-
                         multiplication, but that ISIS prevents OBP agents from having to respond to
                         false alarms. Another OBP sector official indicated that ISIS allows OBP
                         agents to respond to legitimate intrusions in a timely manner, but that
                         measuring the degree of effectiveness is difficult.

                         Reasons varied for not having developed force-multiplication metrics. OBP
                         officials pointed out that to measure accurately force-multiplication benefits
                         of ISIS technology, two types of information are required: the number of
                         attempted illegal entries and the number of attempts that were successful.
                         With this information, OBP could perform trend analysis as ISIS equipment
                         is introduced or increased in an area to determine if ISIS is aiding in the
                         apprehension of those who illegally crossed the border or deterring
                         attempted illegal entries. Since this information is not easily obtainable,
                         OBP must consider other indicators to measure force-multiplication and
                         response effectiveness.

                         ICAD Data is Incomplete and Unreliable for Measuring Force-
                         Multiplication

                         OBP officials acknowledged that ICAD data could be used to analyze force-
                         multiplication and response effectiveness. However, because of the
                         numerous variables involved in cataloging information in ICAD, they also
                         acknowledge that ICAD data would be of limited value and stated that
23
  The Government Performance and Results Act of 1993 holds federal agencies accountable for achieving program
results.

                         A Review of Remote Surveillance Technology along U.S. Land Borders

                                                      Page 18
                          conclusions drawn from this data would vary significantly at times. Several
                          data entry steps are necessary for ICAD data to be useful in determining
                          force-multiplication benefits and response effectiveness. If any of these
                          steps were not completed, the ICAD data would be incomplete.

                          One senior OBP official described the ICAD data collection process as
                          follows:

                          1. Sensor alerts automatically create a ticket in ICAD. If questionable
                             activity is detected while monitoring RVS camera video or a citizen or
                             another agency reports illegal alien activity, the LECA manually creates
                             a ticket in ICAD.

                          2. Once an ICAD ticket is created, the LECA must radio the intrusion alert
                             to an OBP agent in the field.

                          3. The OBP agent must acknowledge and then investigate the alert.

                          4. After investigating the alert, the OBP agent must report his or her
                             findings to the LECA.

                          5. Once the LECA receives this information, the LECA must enter the
                             information into ICAD.

                          LECAs may not always have time to advise an OBP agent of sensor alerts or
                          camera observations due to the need to address higher priority events such
                          as vehicle stops, patrol apprehensions in progress, or anytime officer safety
                          is an issue. During this time, LECAs may be restricted from using the radio
                          until such time as the higher priority events stabilize and routine
                          communications can resume. Similarly, OBP agents may not be available to
                          respond in a timely manner due to limited staff or because they are
                          responding to an earlier or higher priority call. If there is a significant delay
                          between the time the possible intrusion occurred and the time the OBP agent
                          is available to investigate, the ticket may simply be cleared as
                          “Unidentified,” “Not Available,” or “Unknown.”24 Based on these
                          variables, OBP officials are hesitant to use ICAD data to accurately and
                          consistently measure force-multiplication or response effectiveness.

                          Furthermore, ICAD data is not recorded consistently. According to our
                          analysis of the 13 ICAD response categories used by the six sectors in our

24
  According to OBP, “Unidentified” means that an investigation into the incident may have been performed, but no
OBP agent reported its result to the communications center; “Not Available” means that an investigation into the
incident was performed, and an OBP agent currently has no result for the incident, though a result may be forthcoming
after further investigation; and, “Unknown” means that an investigation into the incident was performed, and an OBP
agent cannot determine what caused the incident.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 19
                          sample, there was not a common category that was used by all six sectors.25
                          Also, it appears that different OBP sectors used ICAD result categories
                          differently. For example, one southwest border sector in our sample labeled
                          10,252 ICAD sensor tickets as “Unidentified” and only three tickets as “Not
                          Available,” while another southwest border sector in our sample labeled
                          7,503 ICAD sensor tickets as “Not Available” and none as “Unidentified.”

                          Moreover, some OBP sectors are recording certain events in ICAD while
                          other sectors are not. For example, one southwest border sector in our
                          sample recorded 244 vehicle stops in ICAD, while another southwest border
                          sector in our sample did not record any vehicle stops. While it is possible
                          that some sectors might not encounter certain types of activities, it is
                          unlikely that that explains this situation given the general definition of these
                          categories.

                          Using sample ICAD data, we determined the percentage of apprehensions
                          attributed to sensor alerts and other detections recorded in ICAD. However,
                          OBP officials cautioned against using the number of apprehensions to
                          measure effectiveness because of external factors that directly affect the
                          number of apprehensions. These factors include the number of OBP agents
                          available to respond to sensor alerts or video observations, intercept
                          distances, and the volume of illegal traffic at any given time. Accordingly,
                          the more OBP agents that are available to respond to intrusion alerts
                          combined with a lower rate of illegal traffic, the greater the probability of
                          apprehensions. Conversely, when the rate of illegal traffic is high and the
                          number of OBP agents available to respond is low, the lower the probability
                          of apprehensions.

                          OBP officials believe that RVS cameras serve as a deterrent to illegal border
                          crossings. An OBP official said that once illegal aliens learn where RVS
                          cameras sites are located, they may choose not to cross at those locations.
                          Several OBP officials said that an effective deterrent would actually result in
                          a decreased number of apprehensions. As one senior OBP agent asked
                          rhetorically, “Is it better to deter illegal entry or arrest the same number after
                          they have crossed the border?”

                          Despite the reasons given for not having a means by which to measure
                          force-multiplication and response effectiveness, ICAD data is the only data
                          source currently available by which to evaluate force-multiplication and
                          response effectiveness. Without any measurable indicators, there is no
                          quantifiable assurance that remote surveillance technology has increased
25
  Response categories included “Acknowledged, No Unit Available, No Response, On Site, Agency, Enroute, No
Need, Delay, Not Acknowledged, Response, Other Agency Responding, Busy and Off Duty.” Result categories
included “Apprehension, Animal, Got Away, Legitimate Traffic, Agent, Falsing, Local Traffic, Not Available, Turn,
Unidentified, Weather, No Violation, Train, Multiple Violations, Outbound, Repair, Equipment, and Unknown.”

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 20
                          OBP’s capability to monitor the U.S. borders and to detect and respond to
                          illegal intrusions.

                          Recommendation 2: We recommend that the Commissioner, Customs and
                          Border Protection, standardize the process for collecting, cataloging,
                          processing, and reporting ICAD intrusion and response data.

                          It is Questionable Whether ISIS has Increased Effectiveness

                          Even if ICAD data were consistently and fully cataloged, we question
                          whether remote surveillance technology is providing force-multiplication
                          benefits or increasing response effectiveness. According to our analysis of
                          sample ICAD data, non-ISIS sources of illegal alien detection proved to be
                          as effective based on a percentage of apprehensions per ICAD ticket as RVS
                          camera detections.26 Non-ISIS detections are primarily observations by
                          citizens, OBP agents, or other agency personnel. Along the northern border,
                          non-ISIS sources were more effective than RVS camera detections, and both
                          non-ISIS sources and RVS cameras performed better than sensors based on
                          a percentage of arrests per ICAD ticket.27

                          Our analysis of sample ICAD data also indicated that more than 90 percent
                          of the responses to sensor alerts resulted in “false alarms,” meaning that
                          OBP agents spent many hours investigating legitimate activities.

                          Finally, our analysis of sample ICAD data suggests that additional OBP
                          personnel are needed to integrate and respond to remote surveillance and
                          detections, based on current ISIS capabilities.




26
   The sample included all tickets entered into the ICAD system during five 24-hour periods during April and May
2005. Most ICAD tickets are generated because of a sensor alert. In both the northern border and southwest border
samples, there were 32,741 total ICAD tickets, of which 31,787 were generated because of a sensor alert. The rest,
954, were generated because of a camera detection, vehicle stop, officer observation, other agency observation, citizen
observation, air observation, or some other source.
27
   Although RVS camera detections and non-ISIS detections resulted in a higher percentage of apprehensions, this
percentage can be misleading if compared to sensor detections. ICAD tickets resulting from RVS camera observations
are manually entered into ICAD after LECAs viewed questionable activity, whereas sensor alerts are automatically
sent when sensor sensitivity parameters are met. As a result, fewer ICAD tickets stemming from RVS camera
detections will be entered into ICAD, resulting in a higher percentage of apprehensions per ICAD ticket. ICAD data
we sampled did not indicate when sensors and cameras were used in conjunction with one another.

                           A Review of Remote Surveillance Technology along U.S. Land Borders

                                                        Page 21
Table 1 - Southwest Border ICAD Ticket Results

                      Number                                 Staging,        Identified   Unidentified,
 Ticket Source        of ICAD       Apprehensions            Turn or           False      Unknown or
                       Tickets                              Got Away           Alarm      Not Available
 Sensor Alerts         29,710        252       <1%              3%              34 %          62 %
 RVS Camera
                         155          89        57 %           41 %              1%           0%
 Observations
 Non-ISIS
                         780         382        49 %            4%              40 %          7%
 Sources
Source: OIG analysis of OBP ICAD report data. Note: Rows may not equal 100 percent due to rounding.

                 For the three southwest border sample sectors, 57 percent of RVS camera
                 detections, 49 percent of non-ISIS detections, and less than one percent of
                 sensor detections resulted in apprehensions.

                 Because of the small percentage of apprehensions attributed to sensors, we
                 performed a closer examination of the 29,710 ICAD tickets generated by
                 this source. We learned that LECAs and OBP agents were unable to
                 determine the cause of 62 percent of the sensor alerts because the LECA
                 was unable to communicate the alert to the agents in a timely manner, no
                 agent was available to respond to the dispatch, or it took the agent too long
                 to get to the sensor location. Those sensor alerts were cleared in ICAD as
                 “Unidentified,” “Not Available,” or “Unknown.” Some of these alerts could
                 have represented illegal aliens that crossed the border and were not
                 apprehended, albeit a small percentage based on the analysis of the
                 remaining 38 percent of sensor ICAD tickets for which the cause was
                 determined.

                 The cause of 62 percent of ICAD tickets in the sample was not determined.
                 This suggests that staffing resources were not adequate to contend with
                 sensor alerts that were activated, on average, every 44 seconds.

                 According to our analysis of the 38 percent of ICAD tickets for which the
                 cause was determined:

                 •   Ninety percent were caused by something other than illegal alien
                     activity, such as local traffic, outbound traffic, a train, or animals. An
                     OBP agent investigation was required to determine the cause of these
                     alerts.

                 •   Another two percent were also caused by something other than illegal
                     alien activity. However, an OBP agent investigation was not required to

                 A Review of Remote Surveillance Technology along U.S. Land Borders

                                              Page 22
                               determine the cause. These sensor alerts were attributed to
                               malfunctioning sensors, repair work, or weather.

                          •    Two percent resulted in apprehensions of illegal aliens.

                          •    Six percent were listed as a “turn,”28 a “got-away,”29 or “staging.”30
                               Each of these indicates instances where sensors detected illegal aliens,
                               but they were not apprehended.

        Table 2 - Northern Border ICAD Ticket Results

                                Number                                                Identified     Unidentified,
                                                                      Turn or
          Ticket Source         of ICAD      Apprehensions                              False        Unknown or
                                                                     Got Away
                                 Tickets                                                Alarm        Not Available

          Sensor Alerts           2,077         5       <1%            <1%               92 %               7%
          RVS Camera
                                    6           0         0%            17 %             83 %               0%
          Observations
          Non-ISIS
                                   13           2        15 %           46 %             38 %               0%
          Sources
        Source: OIG analysis of OBP ICAD report data. Note: Rows may not equal 100 percent due to rounding.

                          In the three northern border sectors in our sample, 15 percent of non-ISIS
                          detections and less than one percent of sensor ICAD tickets resulted in
                          apprehensions. No apprehensions were attributed to RVS camera ICAD
                          tickets. However, because OBP officials have identified deterrence as one
                          positive, yet unmeasured benefit of a camera site, this result is not
                          necessarily viewed negatively. Additionally, one sector in the sample did
                          not have RVS camera sites installed.

                          The ability of OBP personnel to determine what caused a sensor alert in the
                          northern border sample sectors was markedly better than those sectors in the
                          southwest border sample. The northern border sample included 2,077
                          sensor alert tickets, which is equivalent to a sensor being activated every 10
                          minutes.


28
   “Turn” means an investigation into the incident yielded no apprehensions because the individual or individuals who
entered the United States illegally turned back and exited the country when confronted by agents.
29
   “Got-away” means an investigation into the incident determined that the individual or individuals who entered the
United States illegally evaded agents and escaped apprehension.
30
   “Staging” means that an investigation is pending, and OBP agents or camera operators are monitoring individuals
who they suspect will cross the border. However, OBP officials stated that “staging” is when illegal aliens cross the
border by a few yards and wait for any OBP agent response before proceeding further into the United States.
“Staging” was only recorded in one of the three sample southwestern border sectors.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 23
                           A closer examination of these tickets revealed that LECAs and OBP agents
                           were unable to determine the cause of seven percent of the sensor alerts
                           because the LECA was unable to communicate the alert to the agents in a
                           timely manner, no agent was available to respond to the dispatch, or it took
                           the agent too long to get to the sensor location. Those sensor alerts were
                           cleared in ICAD as “Unidentified,” “Not Available,” or “Unknown.” Some
                           of these alerts could have represented illegal aliens who crossed the border
                           and were not apprehended, albeit a small percentage, based on the analysis
                           of the 93 percent of sensor ICAD tickets for which the cause was
                           determined.

                           According to our examination of the 93 percent of sensor ICAD tickets for
                           which the cause was determined:

                           •   More than 95 percent were caused by something other than illegal alien
                               activity, such as local traffic, outbound traffic, a train, or animals. An
                               OBP agent investigation was required to determine the cause of these
                               alerts.

                           •   Another five percent were also caused by something other than illegal
                               alien activity. However, an OBP agent investigation was not required to
                               determine the cause. These sensor alerts were attributed to
                               malfunctioning sensors, repair work, or weather.

                           •   Less than one percent resulted in apprehensions of illegal aliens.

                           •   Less than one percent were listed as a “turn” or a “got-away.” Both of
                               these indicate instances where sensors detected illegal aliens, but they
                               were not apprehended.

                           This analysis demonstrated that non-ISIS source detections are an effective
                           means to survey borders based on a percentage of apprehensions per ICAD
                           ticket.31



31
   In the future, non-ISIS detections may involve more organized volunteer citizen action groups such as the
Minuteman Project, which organized a 30-day vigil along the Arizona border during April 2005. During that time
approximately 800 volunteers reportedly shut down a 20-mile stretch along the Arizona border near Naco to illegal
aliens by using a simple spot-and-report type of operation. While the exact numbers vary depending on the source,
OBP agents credited the civilians with cutting apprehensions in that area from an average of 500 a day to less than 15
a day, with the Mexican government estimating that the number of those attempting to cross the border decreased by
half during the patrol period. The CBP Commissioner praised the volunteers’ efforts and testified before Congress
that trained civilian patrols could be an effective force-multiplier. In July 2005, U.S. Representative John Culberson
introduced legislation, H.R. 3622, the Border Protection Corps Act, to create a Border Protection Corps, allowing the
governors of states along the northern and southern borders to name civilians to work as sworn law enforcement
officers for border protection, using $6.8 billion in unused DHS first-responder funds.

                           A Review of Remote Surveillance Technology along U.S. Land Borders

                                                        Page 24
           According to our analysis of sensor alerts along both U.S. borders, 90
           percent or more were false alarms. Therefore, despite claims that ISIS
           prevents OBP agents from having to respond to false alarms, the analysis
           indicates that OBP agents are spending many hours investigating legitimate
           activities primarily because sensors cannot differentiate between illegal
           activity and legitimate events, and because there are too few operational
           RVS camera sites available for OBP personnel to evaluate the cause of an
           intrusion alert remotely.

           Finally, based on our analysis, without the necessary personnel to perform
           video analysis, or investigate sensor alerts, force-multiplication benefits are
           minimized and illegal aliens may be gaining entry into the United States.
           Based on OBP data as of March 2005, while the number of OBP agents
           increased to 10,742 from 9,487, an increase of 1,255 OBP agents since
           September 11, 2001, the total number of LECA positions actually decreased
           to 241 from 244 after September 11, 2001. At one location we visited, one
           LECA was on duty to perform primary radio-dispatching duties, process
           sensor alerts, and monitor 32 cameras. At another sector, there were only
           eight LECAs to staff a 24-hour, seven-days-a-week operation. Two sectors
           we visited assigned OBP agents to communications centers to monitor RVS
           camera video in high volume illegal alien traffic areas, and one sector we
           visited used military reserve personnel to perform LECA duties. One senior
           sector official said he did not need any more OBP agents until he got more
           LECAs to support them.

           In summary, the sample ICAD data suggest that the use of current ISIS
           remote surveillance technology yields few apprehensions as a percentage of
           detection, especially when compared to non-ISIS surveillance and detection
           sources, results in needless investigations of legitimate activity, and is staff
           intensive.

           Recommendation 3: We recommend that the Commissioner, Customs and
           Border Protection, develop and apply performance measures that can
           evaluate whether current and future technology solutions are providing
           force-multiplication results and increasing response effectiveness in
           monitoring and detecting illegal intrusions along U.S. borders.


OBP’s Oversight of Contract Activities Related to RVS Equipment
Installations was Ineffective
           Weak project management and contract oversight, exacerbated by frequent
           turnover of ISIS program managers, resulted in RVS camera sites not being



           A Review of Remote Surveillance Technology along U.S. Land Borders

                                        Page 25
                          completed, leaving large portions of the border without camera coverage.32
                          In addition, completed work was not finished in a timely manner, and
                          millions of dollars in RVS funding remain unused in GSA accounts.

                          Based on our analysis of OBP and GSA records, 25 TDs were not
                          completed. The total amount awarded for these TDs was $58.4 million. Of
                          that amount, $33.9 million has been paid to the contractor for this partially
                          completed work. According to OBP records, 168 RVS camera sites and 38
                          non-camera sites have not been completed. As a result, OBP agents must
                          address these coverage deficiencies with manned patrols. Six of these
                          incomplete TDs that should have produced 41 RVS camera sites resulted in
                          just 28 operational RVS camera sites. However, the documents provided
                          did not separate the cost of individually completed sites. Therefore, the total
                          amount awarded and invoiced for these completed RVS camera sites are
                          included in these figures for incomplete TDs.33

                          According to the BPA and the project’s Statement of Work, the ISIS project
                          manager was authorized to (1) initiate work by issuing TDs to the
                          contractor, oversee all work performed as a result of the TD, and generally
                          conduct monthly conference calls with the contractor and GSA to oversee
                          contractor performance; and, (2) certify correct and properly supported
                          invoices, thereby accepting services, and return the certifications to the
                          contractor, who would forward the invoice and certification to GSA for
                          payment. Although the contracting officer and the contracting officer’s
                          technical representative were GSA employees, it was incumbent upon OBP
                          to oversee contractor performance and certify contractor invoices.
                          Nonetheless, there is only limited evidence that OBP monitored contractor
                          performance or fulfilled its responsibilities under the BPA to certify
                          invoices.

                          OBP’s Oversight of Contractor Performance was Ineffective

                          To test the adequacy of contracting oversight, we reviewed procurement
                          documents for a sample of seven RVS installation TDs, six issued under the
                          BPA and one issued prior to the BPA.


32
   In a series of audit reports beginning in early 2003, GSA OIG identified inadequate management controls and
numerous improper contract activities on the part of GSA’s Federal Technology Service, including activities related to
RVS installations and contracting. Those audits are included in the “Compendium of Audits of the Federal
Technology Service Client Support Centers” dated December 14, 2004. GSA OIG’s audits were of GSA’s
procurement practices and not of the overall efficiency, effectiveness, or management of the RVS program.
Conversely, our review was of OBP’s use of remote surveillance technology, including RVS equipment, and not an
audit of its procurement practices. Nonetheless, while conducting our review, we encountered certain contract
management issues that adversely affected the timely installation of RVS equipment.
33
   According to GSA data, the total contract award for these six TDs was $11.7 million. As of August 2005, the total
amount paid to the contractor was $6.5 million.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 26
                           For the six TDs issued under the BPA, periodic monthly performance
                           reviews were conducted and conference calls were held. Documentation
                           provided by OBP did include monthly status reports that had been prepared
                           by the RVS contractor and minutes of conference calls. As evidenced by
                           the incomplete camera sites, the monthly status reports that were completed
                           and the conference calls that were held did not ensure that the RVS
                           contractor finished RVS installations before the BPA expired.

                           Despite the evidence that OBP conducted some contractor oversight,
                           contractor installations proceeded slowly. According to OBP documents,
                           every TD in the sample included a specified period of performance;
                           however, invariably the periods of performance were extended multiple
                           times. This considerably increased the time required to complete projects.
                           None of the TDs in the sample were completed on or before their original
                           periods of performance. It is unclear who approved the performance
                           extensions. However, there is little evidence that OBP objected or
                           effectively inserted itself in the RVS procurement process to ensure
                           satisfactory contractor performance.

                           For example, one TD was issued on May 22, 2001, for Phase I installation
                           work at a southwest border sector and on April 8, 2002, for Phases II and
                           III.34 Each work order had a period of performance of 12 months, which
                           meant the project should have been completed by April 8, 2003. However,
                           the period of performance was extended five times. The last period of
                           performance extension allowed the work to continue until September 30,
                           2004, the day the BPA expired, for a total extension of slightly less than 18
                           months. Performance extensions were granted because of environmental
                           assessment work and land lease issues. According to OBP, as of August
                           2005, 12 RVS camera sites and two non-camera sites remain incomplete for
                           this TD.35

                           In another example, a TD for one northern border sector was issued on May
                           15, 2001, for Phase I installation work and on March 19, 2002, for Phase II
                           and III installation work. Both of these work orders had 12-month
                           performance periods. These work orders were extended three times, and
                           ultimately all three phases of work were extended through September 30,
                           2004. Although the performance period for Phase I work was extended for
                           slightly more than 28 months, no poles or cameras were ever installed.


34
   RVS installation work was divided into three main phases. Phase I, administrative preparation, included
environmental assessments, rights of entry, real estate issues, permits, power availability, geotechnical surveys, access
reports, and surveys. Phase II, ground breaking, included pole installation, utility hook up, and other related
construction. Phase III included installation of cameras, transmission lines, consoles, the control room, and other
related electronics.
35
   According to OBP records, these 14 sites are in Phases II or III.

                           A Review of Remote Surveillance Technology along U.S. Land Borders

                                                        Page 27
                             According to OBP, as of August 2005, eight RVS camera sites and four
                             non-camera sites remain incomplete for this TD.36

                             OBP Certified Few Contractor Invoices Prior to Payment

                             According to OBP and GSA records, most contractor invoices were paid
                             without OBP certification. Procedurally, OBP should have certified correct
                             and properly supported invoices, thereby accepting services, and returned
                             the certifications to the contractor, who would forward the invoice and
                             certification to GSA for payment. However, for the six TDs in our sample,
                             GSA paid 58 contractor invoices without documented certification.

                             Overall, OBP rejected few invoices, and most invoices were not addressed
                             (either accepted or rejected) in OBP invoice certification documents. OBP
                             has hired Performance Management Consulting (PMC) to assist in verifying
                             contractor invoices and closing TDs. As evidence that OBP certified
                             invoices, OBP provided copies of email messages written primarily by PMC
                             employees recommending payment of invoices submitted by the RVS
                             contractor and rejecting a few. For example, for two southwest border TDs
                             in our sample, we reviewed 19 RVS contractor invoices. For those two
                             TDs, only six invoices were recommended for payment in the certification
                             emails. According to GSA records, 39 invoices submitted by the contractor
                             for these two TDs were paid in full. For the other four TDs in our sample
                             that were issued under the BPA, only one invoice was approved in these
                             certification emails, while GSA records indicate 26 invoices for those four
                             sample TDs were paid in full. For our six sample TDs, no invoices were
                             rejected. The certification emails did include rejections of a few invoices
                             for TDs that were not in our sample.

                             Currently, OBP is certifying invoices after the invoices have been paid.
                             GSA records indicate that almost every invoice submitted was paid in full.
                             With PMC’s assistance, OBP is seeking refunds from the contactor for
                             goods and services that were invoiced and paid but not delivered. OBP
                             cited an example where PMC had determined that for one TD, IMC over
                             billed the government by approximately $9,000. As many of the TDs have
                             not been completed and the BPA has expired, OBP must reconcile costs
                             incurred by the contractor on a time and materials basis or based on a
                             percentage of CLIN work that has been completed. For example, one OBP
                             official indicated that the ISIS program management office had certified a
                             2002 invoice during 2005.

                             According to GSA, the GSA contracting officer’s technical representative
                             was supposed to ensure that OBP received and approved contractor

36
     According to OBP records, these 12 sites are in Phase I.

                             A Review of Remote Surveillance Technology along U.S. Land Borders

                                                          Page 28
invoices. GSA agreed that, in practice, there was confusion about the
responsibilities of OBP and GSA and, as the project grew and became more
complex, the potential for error and pressure to keep on schedule increased.
Nonetheless, OBP was obligated to certify invoices, and there is minimal
evidence that it fulfilled that obligation. This resulted in payment to the
contractor for unverified goods and services.

There is some evidence, however, that OBP attempted to bring the
contractor into compliance with the BPA. On September 9, 2003, the ISIS
program manager wrote a detailed letter to the contractor outlining a litany
of concerns with respect to the contractor’s performance. Among other
things, the letter cited inefficient financial tracking and cost control,
inefficient inventory control, a failure to meet required deadlines and
deliverable due dates, and a failure to notify the government of impediments
to installations. The letter made several recommendations for remediation.

However, GSA complicated OBP’s efforts. In October 2003, GSA
concluded that BPA invoices could not be submitted for construction-related
expenses. According to the MOU, funds for RVS installations were directed
to the GSA “Information Technology (IT) Fund.” On October 9, 2003, the
GSA contracting officer wrote a letter to IMC instructing the company not
to submit any invoices for non-IT related work. This letter also instructed
the contractor to disregard OBP’s letter of September 9, 2003. According to
GSA’s letter, the GSA contracting officer is the only authority who can
provide contractual direction and OBP’s letter was not legally binding.
Despite this correspondence, it appears GSA continued to pay invoices that
the contractor submitted after this letter was sent.

The MOU was signed in September 1998. It took GSA five years to realize
that construction-related expenses were being paid from the IT Fund. The
installation of RVS sites involves construction-related activities, particularly
installing poles for cameras and related infrastructure, including repeater
towers and power supplies. In essence, the letter from the GSA contracting
officer was a stop work order. It does not appear that GSA coordinated this
action with OBP.

RVS Installation Funds Remain Unspent in GSA Accounts

According to our analysis of OBP records, at least $16 million in OBP funds
for RVS camera installations remains unspent in GSA accounts for the TDs
we sampled. For the same TDs, GSA records indicate that $5.3 million
remains unspent. According to the OBP documentation, $27.2 million in
RVS funding was transferred to GSA, which is over $5.9 million more than
GSA records show as having been received. Conversely, GSA data
indicates $5.1 million more in invoices for these six TDs than what OBP

A Review of Remote Surveillance Technology along U.S. Land Borders

                             Page 29
                          records showed. As the roles and responsibilities of OBP and GSA were
                          unclear, both entities kept poor records of contract documents. Now, as
                          each component attempts to reconcile obligations and verify services
                          rendered and products delivered, different conclusions are being drawn.
                          OBP, GSA, and the contractor are attempting to resolve the situation.

                          Recommendation 4: We recommend that the Commissioner, Customs and
                          Border Protection, continue to work with GSA and the RVS contractor to
                          settle remaining claims under the BPA, financially reconcile funding
                          provided to GSA, and obtain the return of the unused funds to DHS.


        Challenges Exist in Expanding Surveillance Coverage
                          Based on a review of RVS camera installation schedules and OBP records,
                          these installations took, on average, 20 months to complete. The most time
                          consuming aspect of installing RVS sites and associated infrastructure,
                          involved site selection, securing land access, and performing environmental
                          assessments. In some instances, these administrative activities took more
                          than 12 months to accomplish. This requirement will continue to exist in
                          completing future RVS camera sites, repeater tower sites, and supporting
                          power infrastructure. An analysis of the process OBP used to install RVS
                          sites identified possible causes for project delays. OBP used the following
                          process:

                          1. OBP sector personnel identified potential RVS sites.

                          2. OBP headquarters personnel issued a scope of work to the contractor.

                          3. The contractor prepared a comprehensive technical and cost proposal to
                             perform the work outlined in OBP’s scope of work.

                          4. OBP reviewed the contractor’s technical and cost proposal, worked with
                             the contractor to resolve any issues and then request that GSA, via a TD,
                             issue an award to the contractor to perform the work.

                          5. Under the BPA, the contractor validated the sites selected by OBP and
                             conducted preliminary real estate coordination.37

                          6. After the contractor validated the sites selected by OBP and property
                             access was secured, OBP tasked USACE, under a memorandum of
                             agreement, to perform the environmental assessments before the

37
  Although, the RVS contractor was responsible for conducting preliminary real estate coordination, INS or CBP’s
leasing offices actually executed the lease documents.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 30
                              contractor began the actual site installation.

                         7. If property access negotiations were unsuccessful or environmental
                            restrictions existed, OBP would have to identify an alternate location to
                            install desired ISIS equipment. This would require modifying the TD,
                            and would potentially involve entering into subsequent lease agreement
                            negotiations, and performing additional environmental assessments.

                         Much of this pre-construction activity was performed sequentially when
                         some steps could have been performed concurrently. For example, USACE
                         personnel could have been requested to perform informal consultation with
                         state, tribal, and federal regulatory agencies and provided some preliminary
                         assessment as to whether a potential negative environmental effect might
                         exist as part of the site selection process, while other contract activities –
                         such as preparing, reviewing, and approving the contractor’s technical and
                         cost proposals, validating selected sites, and preparing property access
                         agreements – were being performed.

                         To meet the ambitious goals of ASI, a significant number of additional
                         surveillance structures and supporting infrastructure will likely be
                         required.38 An analysis of linear miles of borderlands performed by
                         Government Accountability Office (GAO) indicates that 75 percent of the
                         northern border is either state or privately owned and 25 percent is federal or
                         tribal land.39 Along the southwest border, 57 percent is either state or
                         privately owned, while 43 percent is federal or tribal land.

                         •    Federal land encompasses national parks, national forests, wildlife
                              refuges, and that regulated by the Bureau of Land Management. Some
                              federal land is designated as wilderness area under the Wilderness Act of
                              1964, which generally prohibits the construction of permanent structures
                              such as communication towers. Other federal land is designated as
                              critical habitats for endangered and threatened species under the
                              Endangered Species Act. Additionally, 36 federally recognized Indian
                              tribes have land that is close, adjacent to, or straddles international
                              boundaries with Mexico and Canada.




38
   According to OBP officials, the RVS system currently deployed provides approximately 5 percent border coverage
given an average tower height of 70 feet and viewing range of 1.5 miles.
39
   GAO-04-590, Border Security: Agencies Need to Better Coordinate Their Strategies and Operations on Federal
Lands (June 2004).

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 31
Table 3 - Ownership of Land Adjacent to the U.S. Northern and Southwest Borders

                                                 Miles Along the               Miles Along the
  Land Owner
                                                 Northern Border              Southwest Border
  State or Private                                     2,980                         1,080
  Federal and Tribal                                   1,020                           820
     Bureau of Indian Affairs                            160                            76
     Bureau of Land Management                            80                           171
     Fish and Wildlife Service                            40                           152
     National Park Service                               360                           361
     Forest Service                                      400                            57
Source: GAO analysis of federal or tribal land by miles.

                  •   Identifying and locating private landowners and negotiating leases and
                      rights of entry agreements are time-consuming administrative activities.
                      The lease itself may be costly depending on land values, especially in an
                      area such as the Lake Erie shoreline.

                  Once land access is obtained, environmental assessments will need to be
                  performed for all sites being considered for RVS camera, repeater tower,
                  and supporting power infrastructure installations. Federal legislation such
                  as NEPA requires that federal agencies analyze the proposed federal actions
                  that could significantly affect the environmental quality, including a detailed
                  analysis of alternatives to the proposed action. Depending on the level of
                  environmental evaluation and coordination required, some of these activities
                  could take months to complete.

                  Recommendation 5: We recommend that the Commissioner, Customs and
                  Border Protection, develop strategies to streamline the site selection, site
                  validation, and environmental assessment process to minimize delays of
                  installing surveillance technology infrastructure.

                  If OBP is successful in obtaining land access and the subsequent
                  environmental assessment is favorable, resistance to the installation of ISIS
                  equipment from special interest groups, privacy advocacy groups, private
                  landowners, tribal governments, and other concerned citizens may further
                  complicate and delay the installation of camera sites or force OBP to pursue
                  other alternate locations.

                  Given these factors, some sectors have been successful in getting permission
                  from other governmental, as well as non-governmental sources, either to
                  access video feeds from non-OBP cameras or to use non-OBP infrastructure
                  to place RVS cameras. This strategy cannot be used in all locations where
                  cameras are needed, but if access to property that meets strategic or tactical

                  A Review of Remote Surveillance Technology along U.S. Land Borders

                                               Page 32
objectives can be secured, this approach would accelerate the process of
establishing surveillance coverage of the area.

Recommendation 6: We recommend that the Commissioner, Customs and
Border Protection, expand the shared use of existing private and
governmental structures to install remote surveillance technology
infrastructure where possible.

Once installed, RVS camera sites cannot be easily moved to respond to
changes in the traffic patterns of illegal aliens. During our field visits, we
were provided a demonstration of “scope trucks,” which are available in
some sectors. While these vehicles do provide mobile camera surveillance,
the video feed is only available to those in the vehicle and cannot be
transmitted to a central location for central monitoring similar to equipment
used by major news organizations that provide video feeds from remote
locations.

With the acquisition of a UAV system, OBP mobile surveillance capability
will increase OBP’s ability to detect intrusion in those areas approved for
UAV flight operations. Additionally, according to one senior OBP official,
new technology is being tested which would integrate sensors and cameras
with mobile ground and water surveillance radar systems. According to this
OBP official, this technology will be further evaluated for deployment once
the contractor that will serve as a prime integrator in addressing ASI
requirements is selected.

Mobile surveillance technology will eliminate the need to lease property or
perform costly and time-consuming environmental assessments. This
technology would also allow OBP to move remote surveillance platforms to
different locations in response to changing traffic patterns of illegal aliens.

Recommendation 7: We recommend that the Commissioner, Customs and
Border Protection, continue to identify and deploy the use of non-permanent
or mobile surveillance platforms that will increase OBP’s ability and
mobility to identify illegal border intrusions.




A Review of Remote Surveillance Technology along U.S. Land Borders

                             Page 33
Management Comments and OIG Analysis

             We issued our draft report on October 24, 2005, and met with CBP officials
             on November 2, 2005, to discuss the report. At that meeting, CBP provided
             additional technical comments for our consideration. Subsequently, we
             made changes to the draft report, as appropriate, and we issued a revised
             draft on November 14, 2005. Below is a summary of CBP’s response to the
             report’s recommendations and our analysis of their response. A copy of
             CBP’s response, in its entirety, is recorded in Appendix B.

             Recommendation 1: We recommend that the Commissioner, Customs
             and Border Protection, maximize integration opportunities and ensure
             that future remote surveillance technology investments and upgrades
             can be integrated.

             CBP stated that the vision of the ASI surveillance system is to provide an
             integrated defense in-depth and that OBP is working to fully integrate
             border surveillance capabilities with ASI. CBP advised that the new
             technologies to integrate multiple sensory, monitoring, and information
             technologies will be procured after an ASI development and integration
             contractor has been selected, which is projected to be September 2006.

             CBP’s response did not indicate the specific actions it intends to take to
             resolve this recommendation or a reason for the nine-month lag before the
             award of the ASI development and integration contract. CBP indicated that
             work is progressing to fully integrate the border surveillance capabilities,
             however the exact nature of that work was not described. Further, the
             potential for contract award delays, and subsequent delays in implementing
             integration measures are viable threats to CBP meeting the intent of this
             recommendation. Therefore, we request that CBP describe the specific
             actions or activities to be accomplished or are planned before the ASI
             integration is realized.

             Recommendation 1 – Unresolved - Open

             Recommendation 2: We recommend that the Commissioner, Customs
             and Border Protection, standardize the process for collecting,
             cataloging, processing, and reporting ICAD intrusion and response
             data.

             CBP stated that the recently released enhancements to the ICAD system
             provide aids and tools to improve and standardize the data collection
             process. CBP indicated that response data fields have been defined, which

             A Review of Remote Surveillance Technology along U.S. Land Borders

                                          Page 34
should lead to more consistent recording of activity. The system can now
accommodate latitude and longitude information, which will be useful in
geospatial reporting. Additionally, recent ICAD enhancements make it
easier for LECAs to associate cameras with sensor alarm tickets. However,
CBP did not mention what steps it will take to standardize the data in the
results fields. Currently, the data in the results fields are inconsistent across
OBP sectors.

While CBP’s actions are generally responsive to this recommendation,
before we will close this recommendation, we request that CBP address how
they intend to standardize usage of the results fields in ICAD.

Recommendation 2 – Resolved - Open

Recommendation 3: We recommend that the Commissioner, Customs
and Border Protection, develop and apply performance measures that
can evaluate whether current and future technology solutions are
providing force-multiplication results and increasing response
effectiveness in monitoring and detecting illegal intrusions along U.S.
borders.

CBP stated they are applying performance measures that can evaluate the
current technology in use by using the Border Patrol Enforcement Tracking
System and the ICAD system. Additionally, CBP said that specific ASI
requirements are based on established CBP operational requirements and are
aligned with the DHS and CBP enterprise architecture.

Neither during our field visits nor in discussion with OBP headquarters
personnel was the use of the Border Patrol Enforcement Tracking System
mentioned as a method for measuring force multiplication benefits and
response effectiveness. Therefore, we request that CBP further explain the
Border Patrol Enforcement Tracking System, identify how long this system
has been used to measure force multiplication benefits and response
effectiveness, how this system, combined with ICAD system, is measuring
force multiplication benefits and response effectiveness, and what is being
measured.

Additionally, we request that CBP provide the referenced ASI requirements
established for measuring force multiplication benefits and response
effectiveness based on CBP’s operational requirements.

Recommendation 3 – Unresolved - Open




A Review of Remote Surveillance Technology along U.S. Land Borders

                             Page 35
Recommendation 4: We recommend that the Commissioner, Customs
and Border Protection, continue to work with GSA and the RVS
contractor to settle remaining claims under the BPA, financially
reconcile funding provided to GSA, and obtain the return of the unused
funds to DHS.

CBP’s response outlined several significant steps, including regular
meetings with GSA officials and representatives of the RVS contractor, it
has taken to settle remaining claims under the BPA, reconcile funding
provided to GSA, and recover the unused funds and return those funds to
DHS. According to its response, CBP set a due date for these activities of
November 30, 2006.

The actions CBP has taken thus far and the action they have identified to
resolve this issue are responsive to this recommendation. When CBP
provides evidence that the claims are settled and GSA accounts are
reconciled, we will close this recommendation.

Recommendation 4 – Resolved – Open

Recommendation 5: We recommend that the Commissioner, Customs
and Border Protection, develop strategies to streamline the site
selection, site validation, and environmental assessment process to
minimize delays of installing surveillance technology infrastructure.

CBP stated that it will implement strategies to streamline the site selection,
site validation, and environmental assessment process through a Risk
Management Plan, once the ASI prime integrator is selected. Additionally,
CBP stated that the ASI Program Management Office has created a Risk
Management Team and Risk Management Plan to manage risks, including
overall streamlining of installing surveillance technology.

CBP’s response did not indicate what specific actions it will take during the
interim period before the ASI prime integrator is selected to mitigate delays
in the site selection and validation, and the environmental assessment
processes, or how the Risk Management Plan will streamline the installation
of surveillance technology. We request that CBP specifically advise us of
the actions or activities that will be taken to address this recommendation.

Recommendation 5 – Unresolved - Open




A Review of Remote Surveillance Technology along U.S. Land Borders

                             Page 36
Recommendation 6: We recommend that the Commissioner, Customs
and Border Protection, expand the shared use of existing private and
governmental structures to install remote surveillance technology
infrastructure where possible.

CBP advised that it will make every possible use of existing private and
governmental structures to install future remote surveillance technology.

CBP did not indicate what specific actions it will take to identify desirable
existing private and governmental structures for remote surveillance
technology infrastructure installations or how it intends to negotiate the
shared use of non-CBP structures. We request that CBP provide a
description of the specific actions it will take to implement this
recommendation.

Recommendation 6 – Unresolved – Open

Recommendation 7: We recommend that the Commissioner, Customs
and Border Protection, continue to identify and deploy the use of non-
permanent or mobile surveillance platforms that will increase OBP’s
ability and mobility to identify illegal border intrusions.

CBP stated that its goal is to use state-of-the-market technology, equipment,
and infrastructure elements as new technologies are identified, and create a
cost effective system that meets enforcement objectives at the lowest life
cycle costs. CBP pointed out that it will incorporate a mix of both mobile
and permanent surveillance technologies. Additionally, CBP listed several
technologies that might be a part of ASI.

As the ASI contract is not expected to be awarded until September 2006,
and the technologies listed are only potentially part of ASI requirements, we
request that CBP provide a description of specific actions or activities that
will be initiated prior to the proposed date when ASI non-permanent or
mobile surveillance solutions are implemented.

Recommendation 7 – Unresolved – Open




A Review of Remote Surveillance Technology along U.S. Land Borders

                             Page 37
Appendix A
Purpose, Scope, and Methodology




Purpose, Scope, and Methodology
                          The purpose of our review was to determine the effectiveness of border
                          surveillance, remote assessment, and monitoring technology in assisting
                          CBP to detect illegal entry into the United States. In particular, we
                          examined the capabilities, limitations, and support requirements of OBP’s
                          Integrated Surveillance Intelligence System equipment in monitoring
                          activities along United States borders. Where ISIS equipment has been
                          deployed, we assessed where additional ISIS coverage is needed as well as
                          what is being done to address coverage deficiencies.

                          Additionally, we examined how CBP is measuring the effectiveness of these
                          “force-multiplying” technologies to assess and respond to illegal traffic
                          along northern and southwestern borders. Finally, we examined the process
                          of how technology initiatives such as UAVs - which are under consideration
                          for future use as part of the Arizona Border Control Initiative – are
                          introduced, tested, and implemented. The focus of this review was on
                          border surveillance along the United States Canadian and Mexican borders.

                          We collected and analyzed ISIS, ASI, and UAV information, provided by
                          OBP. Also, we obtained and reviewed information from S&T regarding the
                          technology development process. We interviewed officials from CBP-OIT
                          and S&T Directorate in Washington, DC. Additionally, we received
                          information from the GSA’s Chicago regional office, which provided
                          contract support to OBP for the installation of RVS equipment and ICAD
                          systems, and the FAA, which provided information about the use of UAVs
                          in the national airspace system.

                          We performed fieldwork between November 2004 and August 2005 at OBP
                          headquarters in Washington, DC, and at OBP sector offices in Blaine, WA;
                          Detroit, MI; Laredo, TX; Marfa, TX; Naco, AZ; Swanton, VT; and Tucson,
                          AZ. We selected these border sectors based on (1) the amount and types of
                          technology in the sector; (2) whether the sector had recently received either
                          initial or additional technology equipment; and, (3) the general topography
                          of the sector (only land, land and water, or mostly water). The three
                          northern sectors selected are considered “focus” sectors by OBP for national
                          security purposes.40 Two of the selected southwest sectors were designated
                          “focus” sectors.

40
  Some of the factors OBP uses to determine whether a sector is a “focus” sector includes the number of illegal alien
apprehensions, the presence of well-organized smuggling organizations in the sector’s areas of operation that are able
to move large volumes of illegal aliens, and established infrastructure on both sides of the border that facilitates
smuggling. This includes multiple avenues of ingress and egress from the border areas, and the existence of large U.S.

                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 38
Appendix A
Purpose, Scope, and Methodology




                           CBP officials recommended that we visit the Laredo and Blaine Sectors to
                           observe the difference in video resolution between using microwave
                           (wireless) and fiber optic (cable) transmissions. CBP officials also
                           recommended that we visit Tucson Sector to observe UAV flight in support
                           of OBP ground operations.

                           To evaluate the effectiveness of border surveillance, remote assessment, and
                           monitoring technology, we sampled ICAD reports from three southwest
                           border sectors (El Paso, Laredo, and Tucson) and three northern border
                           sectors (Blaine, Grand Forks, and Swanton). For each sector, our sample
                           included all tickets entered into the ICAD system throughout five 24-hour
                           periods during April and May 2005, including tickets resulting from sensor
                           alerts, RVS camera detections, and other non-ISIS sources, such as OBP
                           agent, other agency, or citizen observations.

                           Finally, to assess the RVS camera procurement and installations process, we
                           reviewed all applicable documentation for six of the 47 TDs issued under
                           the BPA. Of those six, four directed RVS installations along the southwest
                           border and two directed RVS installations along the northern border.
                           Additionally, upon OBP’s recommendation, we looked at one “worst case
                           scenario” TD for work on the northern border that was issued under an
                           earlier contract.

                           Our work was conducted under the authority of the Inspector General Act of
                           1978, as amended, and according to the Quality Standards for Inspections
                           issued by the President’s Council on Integrity and Efficiency.




metropolitan areas within driving distance of the border that are used as staging areas and that have transportation hubs
to further the illegal entry into the United States.

                           A Review of Remote Surveillance Technology along U.S. Land Borders

                                                        Page 39
Appendix B
Management Response to Draft Report




                        A Review of Remote Surveillance Technology along U.S. Land Borders

                                                     Page 40
Appendix B
Management Response to Draft Report




                        A Review of Remote Surveillance Technology along U.S. Land Borders

                                                     Page 41
Appendix B
Management Response to Draft Report




                        A Review of Remote Surveillance Technology along U.S. Land Borders

                                                     Page 42
Appendix B
Management Response to Draft Report




                        A Review of Remote Surveillance Technology along U.S. Land Borders

                                                     Page 43
Appendix B
Management Response to Draft Report




                        A Review of Remote Surveillance Technology along U.S. Land Borders

                                                     Page 44
Appendix B
Management Response to Draft Report




                        A Review of Remote Surveillance Technology along U.S. Land Borders

                                                     Page 45
Appendix B
Management Response to Draft Report




                        A Review of Remote Surveillance Technology along U.S. Land Borders

                                                     Page 46
Appendix C
Major Contributors to this Report




                          Carlton Mann, Chief Inspector, Department of Homeland Security, Office of
                          Inspections and Special Reviews

                          Moises Dugan, Senior Inspector, Department of Homeland Security, Office
                          of Inspections and Special Reviews

                          Michael Zeitler, Inspector, Department of Homeland Security, Office of
                          Inspections and Special Reviews

                          Jessica Barnes, Inspector, Department of Homeland Security, Office of
                          Inspections and Special Reviews




                          A Review of Remote Surveillance Technology along U.S. Land Borders

                                                       Page 47
Appendix D
Report Distribution




                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Commissioner, Customs and Border Protection
                      Chief of Staff
                      Assistant Secretary for Public Affairs
                      Assistant Secretary for Legislative Affairs
                      General Counsel
                      Under Secretary, Science and Technology
                      Executive Secretary
                      Assistant Secretary for Policy
                      Chief Security Officer
                      DHS OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS Program Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




                      A Review of Remote Surveillance Technology along U.S. Land Borders

                                                   Page 48
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to Department of
Homeland Security, Washington, DC 20528, Attn: Office of Inspector
General, Investigations Division – Hotline. The OIG seeks to protect the
identity of each writer and caller.
